                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




AUDIT REPORT
Management of the National Nuclear Security
Administration's Biosafety Laboratories




 DOE/IG-0917                         August 2014
                                 Department of Energy
                                    Washington, DC 20585

                                         August 6, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management of the National
                         Nuclear Security Administration's Biosafety Laboratories"

BACKGROUND

In response to the increase in infectious diseases and the threat of bioterrorism, the Department
of Energy's National Laboratories perform research with biological agents. To conduct this
biological research, the Department and the National Nuclear Security Administration (NNSA)
operate multiple laboratory facilities in accordance with various biosafety levels (BSL)
established by the Centers for Disease Control and Prevention. The BSLs classify the
containment level and risk associated with biological agents depending on the threat the agents
pose to personnel and the environment. For example, BSL-1 is for low-risk agents; BSL-2 is for
medium-risk agents; and BSL-3 is for those agents that cause serious and potentially lethal
infections. Department and NNSA sites primarily perform BSL-1 and BSL-2 research; however,
Lawrence Livermore National Laboratory (LLNL) operates a facility with three BSL-3
laboratories while Los Alamos National Laboratory (LANL) is considering opening a facility
with two BSL-3 laboratories. Extensive biological research is performed at LLNL and LANL
for other Government agencies through the Department's Work for Others (WFO) program.

In our report on Coordination of Biological Select Agent Activities at Department of Energy
Facilities (DOE/IG-0695, July 2005), we reported that the Department had not developed a plan
for construction and operation of its BSL-3 laboratories. Thus, it lacked assurance that
capabilities were not being duplicated unnecessarily. As a result of our prior work and
Presidential actions to streamline Government and reduce costs, we initiated this audit to
determine whether NNSA managed its biosafety laboratories effectively. We limited our review
to biosafety laboratories located at LLNL and LANL.

RESULTS OF AUDIT

We found that NNSA was considering a $9.5 million expansion of its BSL-3 and BSL-2
laboratory capabilities at LANL that may not be the most effective use of resources.
Specifically, NNSA identified the development of a BSL-3 facility at LANL as its preferred
alternative for meeting biosafety laboratory needs even though it had not fully considered the
need for and cost effectiveness of additional capacity. Nor, had it developed a sound basis for
measuring the utilization of existing facilities – a critical factor in determining the need for
additional capacity. Despite the lack of information on the need for additional capacity and
current laboratory utilization rates, LANL was also considering building a new BSL-2 facility.

In particular, NNSA proposed development of a facility with two BSL-3 laboratories at LANL.
Additionally, LANL is in the early planning stage for constructing a new BSL-2 facility. The
estimated cost to open LANL's new BSL-3 and to construct/open BSL-2 capabilities was about
$1.5 million and $8 million, respectively. Given current budget realities, plans to develop
additional capabilities without fully demonstrating a need may not be prudent.

In our judgment, NNSA needs to fully reassess its need for biological research facilities. Prior to
2002, the Department and NNSA maintained responsibility for Chemical and Biological
National Security and supporting programs and activities of the Nonproliferation and
Verification Research and Development Program. However, the Homeland Security Act of 2002
transferred responsibility for these programs and activities to the Department of Homeland
Security. When the Department's biological research mission was reduced, oversight of the
associated activities was fragmented. As a result, the activities no longer benefited from
coordinated and specialized program oversight. In particular, although local NNSA field offices
approve projects for WFO customers and oversee safety, NNSA does not coordinate or track
biological research facilities across its sites and laboratories. As a result, NNSA did not know
whether its facilities were utilized efficiently.

To its credit, NNSA recently began a Biological Research Capability Assessment. According to
an NNSA official, the purpose of the assessment is to define NNSA's mission requirements for
biological research. However, according to the NNSA official, the assessment will not specify
what biological research facilities NNSA and each site need to fulfill the mission.

In addition, during the audit we noted that LLNL and LANL's current cost allocation practices
may have understated the costs of biological research personnel that support WFO projects.
Such actions are inconsistent with the Department's full cost recovery policy for WFO work.
Specifically, LLNL and LANL included biosafety research support personnel costs as part of
overhead and general and administrative cost pools that are allocated to all site programs.
Because NNSA funded most site programs and labor costs that general and administrative cost
pools are applied to, this may have resulted in NNSA incurring a disproportionate share of the
biosafety support costs as compared to WFO customers.

Conserving resources in these tight economic times is critical to satisfying pressing Department
mission needs. Accordingly, we made several recommendations to help ensure biosafety
laboratories and costs associated WFO activities are managed effectively.

MANAGEMENT REACTION

Management generally concurred with our recommendations and identified planned actions. We
consider management's comments responsive to our recommendations. Management's
comments are included in Appendix 3.



                                                 2
Attachment

cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff




                                             3
AUDIT REPORT ON MANAGEMENT OF THE NATIONAL
NUCLEAR SECURITY ADMINISTRATION'S BIOSAFETY
LABORATORIES


TABLE OF CONTENTS

Audit Report

Details of Finding ..............................................................................................................................1

Recommendations ..............................................................................................................................6

Management Response and Auditor Comments ................................................................................7

Appendices

     1. Objective, Scope and Methodology .......................................................................................8

     2. Prior Reports ..........................................................................................................................10

     3. Management Comments ........................................................................................................11
MANAGEMENT OF THE NATIONAL NUCLEAR SECURITY
ADMINISTRATION'S BIOSAFETY LABORATORIES


DETAILS OF FINDING
The Department of Energy (Department) and the National Nuclear Security Administration
(NNSA) operate multiple laboratory facilities to conduct biological research including extensive
research for other Government agencies through the Department's Work for Others (WFO)
program. These facilities are operated in accordance with various biosafety levels (BSL)
established by the Centers for Disease Control and Prevention. The BSLs classify the
containment level and risk associated with biological agents depending on the threat the agents
pose to personnel and the environment. For example, BSL-1 is for low-risk agents, BSL-2 is for
medium-risk agents and BSL-3 is for those agents that cause serious and potentially lethal
infections. Lawrence Livermore National Laboratory (LLNL) operates a facility with three
BSL-3 laboratories while Los Alamos National Laboratory (LANL) is considering opening a
facility with two BSL-3 laboratories.

We found that NNSA was considering a $9.5 million expansion of its BSL-3 and BSL-2
laboratory capabilities at LANL that may not be the most effective use of resources.
Specifically, NNSA identified the development of a BSL-3 facility at LANL as its preferred
alternative for meeting biosafety laboratory needs even though it had not fully considered the
need for and cost effectiveness of additional capacity. Nor, had it developed a sound basis for
measuring the utilization of existing facilities - a critical factor in determining the need for
additional capacity. Despite the lack of information on the need for additional capacity and
current laboratory utilization rates, LANL was also considering building a new BSL-2 facility.
This situation occurred primarily due to NNSA's lack of coordinated and specialized program
oversight after responsibility for Chemical and Biological National Security and supporting
programs and activities of the Nonproliferation and Verification Research and Development
Program were transferred to the Department of Homeland Security in 2002.

To its credit, NNSA recently began a Biological Research Capability Assessment. According to
an NNSA official, the purpose of the assessment is to define NNSA's mission requirements for
biological research. However, according to the NNSA official, the assessment will not specify
what biological research facilities NNSA and each site need to fulfill the mission.

Additionally, during the audit we noted that LLNL and LANL's current cost allocation practices
may have understated the costs of biological research personnel that support WFO projects.
Specifically, LLNL and LANL included biosafety research support personnel costs as part of
overhead and general and administrative cost pools that are allocated to all site programs. Such
actions are inconsistent with the Department's full cost recovery policy for WFO work.

Conserving resources in these tight economic times is critical to satisfying pressing Department
mission needs. Thus, in our opinion, NNSA should fully reassess its need for biological research
facilities and its charging practices for WFO biosafety research activities.




Details of Finding                                                                        Page 1
BSL-3 Laboratory Capacity and BSL-2 Plans

Neither NNSA nor LANL had fully analyzed the need for and cost effectiveness of alternatives
for meeting biosafety facility requirements. NNSA has proposed opening a new BSL-3 facility
in a previously constructed building and is in the early planning stage for constructing a BSL-2
facility at Los Alamos. Under NNSA's proposal, LANL would open a BSL-3 facility in
February 2015, without the need for additional BSL-3 capacity being fully evaluated and
confirmed. The facility was originally built in 2003; however, it was never opened due to
litigation and a seismic safety concern. Opening LANL's BSL-3 facility will increase NNSA's
net BSL-3 laboratory space 1 from 640 to 1,240 square feet, a 94 percent increase.

To justify opening the facility, LANL reported to NNSA that there was a mission need and that
work for the facility would come from customers of LANL's WFO program. However, neither
NNSA nor LANL officials provided quantitative projections of demand for WFO projects at the
facility or analyzed the current BSL-3 capacity within NNSA. LANL officials explained that
most of its WFO projects were obtained by submitting proposals in response to Federal agencies'
announcements for research awards. LANL officials believed that its site security and unique
capabilities, such as the ability to sequence DNA, positioned it to win numerous awards. LANL
issued two reports that assessed the need for a new BSL-3 facility. In 2011, a Parent
Organization Functional Management Review concluded that there was a clear mission need for
an on-site BSL-3 facility at LANL. LANL also issued a Bioscience Capability Review in 2011.
According to that report, an external panel found that the BSL-3 facility was essential to LANL's
mission. However, neither of these reviews considered empirical data such as available NNSA
capacity at other locations, a critical factor for opening a new facility; or provided estimates of
projected use from WFO sponsors.

Despite LANL's assertions, we found outside demand for a new BSL-3 facility to be less certain.
Specifically, we contacted two of the three Federal agencies that LANL told us were prospective
WFO customers and officials representing those potential customers stated that they did not have
any specific plans to contract for BSL-3 research at LANL. Further, officials at both agencies
indicated that other existing BSL-3 facilities could satisfactorily meet their needs. In fact, one
official told us that generally other existing BSL-3 laboratories were less expensive than
expected at the new LANL facility and that several had comparable security. Most striking to us
was the fact that an official from the second Federal agency informed us it was building its own
BSL-3 facility within the next two years. While our query was limited, it did indicate that
demand may not be nearly as likely as LANL suggested and that additional analysis regarding
use by potential external customers needs to be completed before additional Federal funds are
committed to this project.

Alternatives Analysis

Neither NNSA nor LANL had analyzed the cost effectiveness of alternatives for meeting BSL-3
needs. Although LANL estimated that it expended approximately $1 million in total in Fiscal


1
 Net space refers to research space exclusive of space for ventilation, maintenance, etc. The gross building space of
LLNL's and LANL's BSL-3 facilities are 1,600 and 3,200 square feet, respectively.


Details of Finding                                                                                         Page 2
Years 2010 and 2011, to outsource BSL-3 requirements, LANL officials told us that they had no
expenditures in Fiscal Years 2012 and 2013 for such outsourcing because they did not submit
any research proposals for BSL-3 work. LANL stated that no proposals were submitted due to
the hardships it experienced in outsourcing this type of work in the previous two years.
However, LANL could not provide documentation to support its assertions. In our view, the lack
of outsourcing in 2012/2013 further raises questions about the need for new facilities. Further,
LANL had not provided any analysis of the labor and other costs associated with performing
research within a LANL BSL-3 facility as opposed to outsourcing requirements when needed. In
addition to the direct costs to perform research within a BSL-3 facility, LANL will also need to
expend about $437,000 in upgrades to mitigate a seismic concern and an additional $595,000 to
open the facility, which includes $368,000 of operating costs for maintenance, utilities, etc.
NNSA also is spending about $478,000 to complete the required Environmental Impact
Statement to support opening and operating the facility.

Additionally, we could not determine whether LLNL's existing BSL-3 laboratory capacity was
sufficient to perform the additional biological research that would be performed in the LANL
BSL-3 facility. The data regarding actual utilization rates of LLNL's BSL-3 laboratories was not
readily available. LLNL asserted that its BSL-3 laboratories were over utilized and did not have
the capacity for additional work; however, LLNL did not have data to support its projected
biosafety laboratory utilization rates. In fact, LLNL officials stated that its scheduling system
did not have the capability to estimate laboratory utilization rates. Thus, we could not verify
LLNL's assertions regarding a lack of available additional capacity. We also noted that LANL
does not have the capability to determine its biosafety laboratory utilization rates. Verifiable
information about the extent to which biosafety laboratories are utilized is a key factor in
determining whether additional capacity is needed to meet Department and national needs.

Finally, LANL's proposed plan to construct a new BSL-2 facility had not fully considered
options available to meet its biosafety research needs. LANL proposed to begin designing and
constructing a new $8 million BSL-2 facility to replace its existing facility because, according to
LANL officials, it had reached its useful life. Even though the new facility is in the early
planning stage, LANL had not fully considered the cost-effectiveness of available options to
meet its BSL-2 needs. Notably, LANL's Long Range Infrastructure Development Plan dated
September 2013, considered four alternative options for performing its BSL-2 work. However,
none of the four options contained detailed analyses describing the advantages and disadvantages
of each alternative.

Mission Need Requirements

In our judgment, NNSA needs to fully reassess its need for biological research facilities. And,
the assessment should take an integrated view which includes assets and capabilities at all of its
laboratories and related facilities. Prior to 2002, the Department and NNSA maintained
responsibility for Chemical and Biological National Security and supporting programs and
activities of the Nonproliferation and Verification Research and Development Program.
Accordingly, NNSA proposed to construct BSL-3 facilities at LLNL and LANL. However, the
Homeland Security Act of 2002 transferred responsibility for these programs and activities to the




Details of Finding                                                                         Page 3
Department of Homeland Security. The Act further authorized Department of Homeland
Security to utilize the Department's laboratories and sites through joint sponsorships, direct
contracts and WFO bases.

When the Department's biological research mission was reduced, oversight of the associated
activities was fragmented. Prior to implementation of the Act, certain biological research
activities were managed by the Department's Chemical and Biological National Security
Program. Subsequent to the Act, to the extent NNSA performed them as WFO, biological
research activities were managed by NNSA's Office of Interagency Work, which oversees a wide
range of WFO activities. As a result, the activities no longer benefited from coordinated and
specialized program oversight. Specifically, although local NNSA field offices approve projects
for WFO customers and oversee safety, NNSA does not coordinate or track biological research
facilities across its sites and laboratories. For example, we found that NNSA did not require sites
to measure and report on their biosafety laboratory capacity and utilization. As a result, NNSA
did not know whether its facilities were utilized efficiently. In this context, we found that NNSA
and its laboratories based their facility planning decisions on each site's perceptions about future
demand from WFO customers. We concluded that the interests of the taxpayers would be better
served if the Department and NNSA conducted an organization-wide assessment of needs and
the capacity within NNSA and the Department to meet such needs.

Concerns regarding construction and operation of the Department's biosafety laboratories were
raised previously by the Office of Inspector General. Our Inspection report, Coordination of
Biological Select Agent Activities at Department of Energy Facilities (DOE/IG-0695, July 2005),
found that the Department had not established an orderly mechanism for coordinating its
biological select agent research and development activities. Consequently, there was no
assurance that projects were being directed to the laboratory best suited to meet the requirements;
resources were being effectively utilized; security implications were being addressed; and
capabilities were not being inappropriately duplicated. In response to the report
recommendations, management stated that it would re-constitute a coordinating entity that
emulates the Department's Biosurety Working Group to coordinate research activities involving
select agents and toxins. As a part of this audit, we determined that the Biosurety Executive
Working Group currently exists; however, according to an NNSA Headquarters official, it has
not performed any facility reviews. In our opinion, given the previously identified issues, and
the proposed BSL expansion/replacement, the Department should take necessary steps to ensure
that taxpayer-provided funds are spent efficiently and effectively.

Recently Announced Biological Research Capability Assessment

To its credit, NNSA recently began a Biological Research Capability Assessment. According to
an NNSA official, the purpose of the assessment is to define NNSA's mission requirements for
biological research. However, according to the NNSA official the assessment will not specify
what biological research facilities NNSA and each site need to fulfill the mission.




Details of Finding                                                                          Page 4
Cost Allocation

In the course of our review we observed that LLNL and LANL's current cost allocation practices
may have understated the costs of biological research personnel that support WFO projects. In
Fiscal Year 2012, LLNL and LANL performed more than 75 percent of BSL-3 and BSL-2
research for WFO customers such as the Department of Homeland Security, the National
Institutes of Health and private companies. Examples of WFO support personnel included
Institutional Biosafety Committee Chairs, Biological Safety Officers, Responsible Officials, and
maintenance personnel for BSL-3 and BSL-2 facilities. The National Institutes of Health require
some of these support personnel for certain types of research in order for the laboratories to
receive funding (which may be more appropriate as a direct charge). In addition, the Centers for
Disease Control and Prevention require a Responsible Official to ensure compliance with Federal
regulations when research on select agents is performed in a laboratory. We noted that LLNL
and LANL included biosafety research support personnel costs as part of overhead and general
and administrative cost pools that are allocated to all site programs. Because NNSA funded most
site programs and labor costs that general and administrative cost pools are applied to, this may
have resulted in NNSA incurring a disproportionate share of the biosafety support costs as
compared to WFO customers. In our opinion, NNSA should review the costs for biosafety
research support personnel to determine whether they are appropriately considered part of
general and administrative cost pools or should be charged directly to WFO projects.




Details of Finding                                                                       Page 5
RECOMMENDATIONS
As previously discussed in the Office of Inspector General report on Management Challenges at
the Department of Energy – Fiscal Year 2013 (DOE/IG-0874, October 2012), conserving
resource in these tight economic times is critical to satisfying pressing Department mission
needs. Accordingly, to help ensure biosafety laboratories are managed effectively, we
recommend that the Administrator, National Nuclear Security Administration:

   1. Direct NNSA sites to measure and report on their BSL-3 and BSL-2 facility utilization
      and capacity, and establish a process to use this information effectively in future BSL
      facility decisions;

   2. Revisit and document the need for the proposed BSL-3 and BSL-2 facilities considering
      mission need; potential external customers; and reliable utilization and capacity metrics
      for other facilities across the enterprise which might meet those needs, as proposed in
      Recommendation 1; and

   3. Review costs for biosafety research support personnel to determine if the cost allocation
      structure is appropriate.




Recommendations                                                                         Page 6
MANAGEMENT RESPONSE
Management generally concurred with our recommendations and identified planned actions.
Management indicated that, while not required, it would develop utilization and capacity metrics
for its biosafety labs and establish a requirement to report periodically based on established
Department of Energy practices such as those used for "user facilities." Management also agreed
to use the data from these metrics to inform future biosafety level (BSL) facility decisions.
Management also agreed to re-evaluate and more formally document its analysis of the Los
Alamos National Laboratory (LANL) BSL-3 facility mission, potential customers, and utilization
and capacity data for facilities which can provide similar capabilities. Management also plans to
consider the compatibility of the proposed work at LANL and Lawrence Livermore National
Laboratory in its decision. Further, if a decision is made to formally pursue a new BSL-2 facility
at LANL, NNSA agreed to perform and document a similar evaluation. Finally, management
agreed to review the specific components of biosafety research support personnel costs being
charged to indirect cost pools and verify that the resulting cost allocation is appropriate.

Management's comments are included in Appendix 3.

AUDITOR COMMENTS
The Department's planned corrective actions are responsive to our recommendations.




Management Response and Auditor Comments                                                  Page 7
                                                                             APPENDIX 1

                  OBJECTIVE, SCOPE AND METHODOLOGY
Objective

The objective of this audit was to determine whether the National Nuclear Security
Administration (NNSA) managed its biosafety laboratories effectively.

Scope

We performed this audit from November 2012 through August 2014, at Lawrence Livermore
National Laboratory (LLNL) in Livermore, California and Los Alamos National Laboratory
(LANL) in Los Alamos, New Mexico. The audit covered biosafety level (BSL)-2 and BSL-3
laboratories and activities from October 2010 to August 2013. The audit was conducted under
Office of Inspector General Project Number A13LL011.

Methodology

To accomplish the audit objective, we:

   •   Reviewed laws, regulations, contract provisions, policies and procedures relevant to
       biosafety facilities/activities and cost accounting;

   •   Interviewed officials at LLNL, LANL, the Livermore Field Office, the Los Alamos Field
       Office, NNSA Headquarters, and Department Headquarters;

   •   Reviewed project details and documentation for BSL-2 projects at LANL and BSL-3
       projects at LLNL;

   •   Obtained lists of support personnel for biosafety biological research at LLNL and LANL
       and data about their salary and fringe benefits;

   •   Reviewed LANL's Health Research Laboratory Facility Modernization Plan published in
       September 2012; and

   •   Communicated with officials at two other Federal agencies about their plans to use the
       BSL-3 facility at LANL.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective. We
also assessed compliance with the GPRA Modernization Act of 2010. We examined performance
measures related to biosafety facilities and activities and found that NNSA had not established



Objective, Scope and Methodology                                                         Page 8
                                                                              APPENDIX 1

related performance measures as part of its Annual Performance Plan. Because our review was
limited, it would not have necessarily disclosed all internal control deficiencies that may have
existed at the time of our audit. We did not rely solely on computer-generated data to satisfy our
objective. Instead, we performed other procedures to satisfy ourselves as to the reliability and
competence of the data by reviewing and analyzing data and performing interviews as it relates
to biosafety facilities and activities. In addition, we confirmed the validity of other data, when
appropriate, by reviewing supporting source documents.

Management waived an exit conference.




Objective, Scope and Methodology                                                          Page 9
                                                                             APPENDIX 2

                                    PRIOR REPORTS
Office of Inspector General

   •   Audit Report on Management Challenges at the Department of Energy – Fiscal Year
       2013 (DOE/IG-0874, October 2012). This report noted that operational efficiency and
       cost savings should be a top priority for management. Consolidating duplicative National
       Nuclear Security Administration functions was identified as one way in which the
       Department of Energy (Department) could reduce the overall cost of operations.

   •   Inspection Report on Coordination of Biological Select Agent Activities at Department of
       Energy Facilities (DOE/IG-0695, July 2005). This inspection found that the Department
       did not have a plan for developing, constructing and operating biosafety level (BSL)-3
       laboratories. As a result, the Department lacked assurance that resources were being
       utilized efficiently and that capabilities were not being duplicated inappropriately.

Government Accountability Office

   •   High Containment Laboratories: Assessment of the Nation's Need is Missing (GAO-13-
       466R, February 2013). The Government Accountability Office (GAO) reported that the
       number of high-containment laboratories had further increased since its 2009 report.
       GAO added that the cost of building and maintaining these laboratories, combined with
       the current lack of national standards and the uncertainty about the number of high-
       containment laboratories needed to address priorities, exposed the nation to risk.

   •   OVERLAP AND DUPLICATION: Federal Inspections of Entities Registered with the
       Select Agent Program (GAO-13-154, January 2013). GAO reported that the number of
       registered biosafety laboratories had grown to over 1,900. Some overlap and duplication
       existed among the agencies responsible for inspecting select agent laboratories.

   •   HIGH-CONTAINMENT LABORATORIES: National Strategy for Oversight Is Needed
       (GAO-09-574, September 2009). GAO reported that the number of high-containment
       laboratories in the United States had expanded in response to the anthrax attacks in 2001.
       In particular, the number of BSL-3 laboratories registered with the Centers for Disease
       Control (CDC) had grown from 415 in 2004 to 1,362 in 2008. GAO found that no
       Federal agency had the mission to track the expansion of BSL-3 and BSL-4 laboratories
       in the United States and none knew how many such laboratories existed.

   •   HIGH-CONTAINMENT BIOSAFETY LABORATORIES: Preliminary Observations on
       the Oversight of the Proliferation of BSL-3 and BSL-4 Laboratories in the United States
       (GAO-08-108T, October 2007). In testimony before Congress, GAO reported that a
       major proliferation of high-containment BSL-3 and BSL-4 labs was taking place in the
       United States. In particular, there were 1,356 BSL-3 laboratories registered with the
       CDC and 458 of them were Federal laboratories. GAO noted that no single Federal
       agency had the mission to track and determine the risk associated with the expansion of
       BSL-3 and BSL-4 laboratories in the United States.


Prior Reports                                                                           Page 10
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 11
                      APPENDIX 3




Management Comments        Page 12
                      APPENDIX 3




Management Comments        Page 13
                      APPENDIX 3




Management Comments        Page 14
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
